4m
I

OCKLE

2311 Douglas Street CA L l B ri f E-Mail Address:
Omaha, Nebraska 68102-1214 ega aio contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-863

AKEVA LLL.C.,
Petitioner,
v.
NIKE, INC., ADIDAS AMERICA, INC.,
NEW BALANCE ATHLETIC SHOE, INC.,
PUMA NORTH AMERICA, INC.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR US INVENTOR
INC. AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 3244 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of January, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska x 2 b d,
; RENEE J. GOSS o. ( des hair ‘
y My Comm. Exp. September &, 2023

Affiant 40583

  
   

 

 

Notary Public
